No. 19-1252

In the Supreme Court of the United States
CALLAN CAMPBELL, ET AL., PETITIONERS
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF FOR THE UNITED STATES IN OPPOSITION

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
MICHAEL GRANSTON
Deputy Assistant Attorney
General
FRANKLIN E. WHITE, JR.
JOHN J. TODOR
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether the court of appeals correctly held that petitioners’ regulatory-takings claims should be dismissed
as untimely because those claims “first accrue[d],”
28 U.S.C. 2501, more than six years before petitioners’
suit was filed.

(I)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statement ...................................................................................... 2
Argument....................................................................................... 9
I. Petitioners’ criticisms of the decision below lack
merit ................................................................................ 10
II. This case does not warrant the Court’s review .......... 15
Conclusion ................................................................................... 20
TABLE OF AUTHORITIES

Cases:
A & D Auto Sales, Inc. v. United States, 748 F.3d
1142 (Fed. Cir. 2014) ............................................ 2, 3, 17, 18
Campbell v. Motors Liquidation Co. (In re Motors
Liquidation Co.), 428 B.R. 43 (S.D.N.Y. 2010) .... 4, 5, 6, 15
Cobb v. City of Stockton, 120 Cal. Rptr. 3d 389
(Cal. Ct. App. 2011)....................................................... 18, 19
Franconia Assocs. v. United States, 536 U.S. 129
(2002) .............................................................................. 12, 13
General Motors Corp., In re:
407 B.R. 463 (Bankr. S.D.N.Y. 2009), stay denied,
No. M 47, 2009 WL 2033079 (S.D.N.Y. July 9,
2009), aff ’d, 428 B.R. 43 (S.D.N.Y. 2010) ....... 2, 3, 4, 5
No. M 47, 2009 WL 2033079 (S.D.N.Y. July 9,
2009) ............................................................................ 14
Knick v. Township of Scott, 139 S. Ct. 2162 (2019) .... 8, 14, 15
United States v. Johnston, 268 U.S. 220 (1925).................. 16
Wisniewski v. United States, 353 U.S. 901 (1957) ............. 19
Statutes and rule:
Bankruptcy Code, 11 U.S.C. 363 (2006) ............................. 2, 3
(III)

IV
Statutes and rule—Continued:

Page

11 U.S.C. 363(f ).................................................................. 3
Tucker Act, ch. 359, 24 Stat. 505 ............................................ 6
5 U.S.C. 704 ............................................................................ 15
28 U.S.C. 2501 .....................................................6, 8, 13, 14, 17
Sup. Ct. R. 10 ............................................................. 16, 18, 19

In the Supreme Court of the United States
No. 19-1252
CALLAN CAMPBELL, ET AL., PETITIONERS
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF FOR THE UNITED STATES IN OPPOSITION

OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1-23)
is reported at 932 F.3d 1331. The opinions of the Court
of Federal Claims (Pet. App. 24-63, 64-91) are reported
at 134 Fed. Cl. 764 and 137 Fed. Cl. 54.
JURISDICTION

The judgment of the court of appeals was entered on
August 1, 2019. A petition for rehearing was denied on
November 22, 2019 (Pet. App. 92-94). On February 10,
2020, the Chief Justice extended the time within which
to file a petition for a writ of certiorari to and including
April 20, 2020, and the petition was filed on that date.
The jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).

(1)

2
STATEMENT

In 2008, General Motors (GM) was deeply insolvent,
with dwindling cash for daily operations. With government financing and bankruptcy-court approval pursuant
to Section 363 of the Bankruptcy Code, 11 U.S.C. 363
(2006), the bankrupt GM entity (Old GM) sold substantially all of its assets, and transferred certain liabilities, to
a new entity (New GM).
Petitioners held unsecured product-liability claims
against Old GM. Petitioners allege that, as a condition
of providing financial assistance, the government demanded that New GM not assume liability for their
claims and that the sale order include an injunction barring their successor-liability claims against New GM.
In their view, the government thus effectively coerced
GM and the bankruptcy court into extinguishing their
claims.
Petitioners brought this regulatory-takings suit,
seeking compensation for the extinguished claims. The
Court of Federal Claims (CFC) dismissed the suit as
time-barred, Pet. App. 24-63, and the Federal Circuit
affirmed, id. at 1-23.
1. In the fall of 2008, in the midst of the global financial
crisis, GM faced serious financial difficulties. See In re
General Motors Corp., 407 B.R. 463, 476 (Bankr.
S.D.N.Y. 2009) (Sale Op.), stay denied, No. M 47, 2009
WL 2033079 (S.D.N.Y. July 9, 2009), aff ’d, 428 B.R. 43
(S.D.N.Y. 2010). Credit markets were frozen and automobile sales were plummeting. See ibid.; see also A & D
Auto Sales, Inc. v. United States, 748 F.3d 1142, 1147
(Fed. Cir. 2014). Unable to obtain financing from private
credit markets, GM requested financial assistance from
the federal government. See Sale Op., 407 B.R. at 477.
The government agreed to provide GM with working

3
capital, on the condition that GM submit viability plans
demonstrating that it “could achieve financial stability
with the help of the government funds.” A & D Auto Sales,
748 F.3d at 1148.
To facilitate the radical restructuring necessary to
preserve its viability as a going concern, GM filed for
bankruptcy on June 1, 2009. Sale Op., 407 B.R. at 479.
The United States and Canada agreed to provide debtorin-possession financing for GM through the chapter 11
process. Id. at 480. In total, the Department of the
Treasury (Treasury) advanced GM approximately $50
billion—$19.4 billion t o enable the company to continue
operating from December 2008 through the date it filed
for bankruptcy protection, and the rest to finance the
bankruptcy and New GM’s ongoing operations. See id. at
473, 479; A & D Auto Sales, 748 F.3d at 1147-1148.
On July 1, 2009, GM filed a proposed sale order pursuant to Section 363 of the Bankruptcy Code. Pet. App. 13;
see 11 U.S.C. 363 (2006). Section 363 “gives a bankruptcy trustee the power to use, sell, or lease the property of a debtor in bankruptcy,” Pet. App. 3, and authorizes the trustee under certain conditions to sell the
property “free and clear of any interest in such property
of an entity other than the estate,” 11 U.S.C. 363(f ).
GM’s proposed sale order would transfer substantially
all of the assets, as well as some of the liabilities, from
the bankrupt entity (Old GM) to a new corporate entity
(New GM). See Pet. App. 6-8; Sale Op., 407 B.R. at 473.
The proposed order provided, however, that New GM
would not assume responsibility for petitioners’ unsecured product-liability claims, and it included a provision
enjoining petitioners from pursuing successor-liability

4
claims against New GM. 407 B.R. at 483. 1 Under the
terms of the order, petitioners thus would remain unsecured creditors of Old GM. Id. at 481.
The proposed sale order was supported by the Creditors’ Committee for GM creditors, the United States,
the governments of Canada and Ontario, the United
Auto Workers (an affiliate of which was GM’s largest
creditor), the indenture trustee for GM’s approximately
$27 billion in unsecured bonds, and an ad hoc committee
representing holders of a majority of those bonds. Sale
Op., 407 B.R. at 473-474. Before considering the motion
to approve the Section 363 sale, the bankruptcy court
conducted a three-day evidentiary hearing. See Campbell v. Motors Liquidation Co. (In re Motors Liquidation Co.), 428 B.R. 43, 49 (S.D.N.Y. 2010). Petitioners
actively participated in this process, including by filing
briefs in support of their position that the Section 363
sale would frustrate their ability to pursue successorliability claims against New GM. See, e.g., Bankr. Docs.
2041, 2050 (June 19, 2009); Bankr. Doc. 2769 (June 30,
2009).
On July 5, 2009, the bankruptcy court granted GM’s
motion. Sale Op., 407 B.R. at 475. Noting that “[t]he
continued availability of the financing provided by
Treasury is expressly conditioned upon approval of this
motion by July 10, and prompt closing of the 363 Transaction by August 15,” the court found that, “[a]bsent
prompt confirmation that the sale has been approved
and that the transfer of the assets will be implemented,
Some States recognize the right of a plaintiff holding a claim
against a defunct corporate entity to assert the same claim against
a successor corporate entity. See Sale Op., 407 B.R. at 500. A claim
brought against the successor entity to enforce a liability of its predecessor is called a “successor liability claim.”
1

5
GM will have to liquidate. There are no realistic alternatives available.” Id. at 484. The court further explained that, in the event of liquidation, Old GM’s unsecured creditors—including petitioners—“would receive
nothing on their claims.” Id. at 475. Petitioners objected to the Section 363 sale’s injunction against their
successor-liability claims, but the court rejected that
challenge. Id. at 499-506.
To accommodate limited appellate review, the bankruptcy court delayed the effective date of the sale order
until July 9, 2009. See In re Motors Liquidation Co.,
428 B.R. at 50. Petitioners appealed to the Southern
District of New York. They did not seek a stay, however, and the Section 363 sale closed on July 10, 2009,
while the appeal was still pending. 2
On April 13, 2010, the district court affirmed the
bankruptcy court’s decision. See In re Motors Liquidation Co., supra. The court concluded that, because the
sale had already closed, “the issues [petitioners] seek to
raise on appeal” were both “statutorily moot under Section 363(m) of the Bankruptcy Code” and equitably
moot. 428 B.R. at 52. In the court’s view, “rewriting the
Sale Order to eliminate the application of the ‘free and
clear’ or injunctive provisions to these claimants would
* * * unravel a fundamental aspect of the integrated
[Section] 363 Transaction and undermine the subsequent transactions that have occurred since the Closing.” Id. at 63. The court observed that petitioners’
“position in the bankruptcy appears to be neither better
nor worse than that of any other unsecured contingent
creditor,” and that “the only alternative to [the Section
Certain other parties (with asbestos-related claims) did seek a
stay, which the district court denied on July 9, 2009. See In re Motors Liquidation Co., 428 B.R. at 50.
2

6
363 sale] was a liquidation in which they and other unsecured creditors would have received nothing.” Id. at
63-64.
Petitioners eventually received payments from Old
GM on their product-liability claims. Pet. App. 31. Petitioners assert, however, that these payments represented a fraction of the claims’ true value. Id. at 99.
2. a. On July 9, 2015, petitioners filed a putative class
action in the CFC, alleging a takings claim. Pet. App. 2,
4-5. Petitioners argued that they had held valid productliability claims against Old GM, and that, in these circumstances, applicable state law recognized a property right
in claims against a successor corporate entity like New
GM. Id. at 5. They contended that the government had
improperly coerced the participants in the bankruptcy
process to extinguish their claims, thus depriving them of
property, by conditioning the closing of the Section 363
sale on the inclusion in the sale order and agreement of
provisions that barred New GM from assuming those
claims and enjoined petitioners from asserting them in
the future. Id. at 43.
The CFC granted the government’s motion to dismiss,
see Pet. App. 24-63, holding that petitioners’ claims
were jurisdictionally barred by the six-year statute of
limitations that governs claims under the Tucker Act,
ch. 359, 24 Stat. 505. That provision states in pertinent
part that “[e]very claim of which the [CFC] has jurisdiction shall be barred unless the petition thereon
is filed within six years after such claim first accrues.”
28 U.S.C. 2501. 3 The CFC concluded that, because petitioners’ claims were based on the alleged “coercion of

Petitioners contend (Pet. 12) that the government “did not assert the statute of limitations jurisdictional defense” in its motion to
3

7
Old GM and the bankruptcy court into including the extinguishment of plaintiffs’ successor liability claims” in
the sale order, those claims had accrued no later than
July 5, 2009, when the bankruptcy court approved the
proposed sale order. Pet. App. 42. The court therefore
held that petitioners’ July 9, 2015, complaint was filed
more than six years after the accrual date and accordingly was time-barred. Id. at 45. The court further held
that, to the extent petitioners alleged a judicial taking
by the bankruptcy court itself, the CFC lacked jurisdiction over that claim because Federal Circuit precedent
“foreclose[d] the prosecution of a takings claim in [the
CFC] which would require a review of the effect of a
bankruptcy court’s rulings on a plaintiff ’s property
rights.” Id. at 47.
In the alternative, the CFC concluded that petitioners had failed to state a claim on the merits because petitioners had not alleged the existence of a cognizable
property right. Pet. App. 49-50. The court observed
that the asserted property right—petitioners’ successorliability claims against New GM, see id. at 52—existed
only because the government had facilitated the creation
of New GM. Id. at 55. At the time petitioners’ successorliability claims arose, the government retained discretion to condition the sale to New GM on the extinguishment of those claims. Id. at 61-62. The CFC therefore
concluded that, because the potential for extinguishment had inhered in petitioners’ claims from their inception, the eventual sale did not effect a taking. Ibid.
dismiss. That is incorrect. The government’s motion to dismiss argued that “any allegations of coercion with respect to GM’s decision
to f ile bankruptcy or exclude plaintiffs’ personal injury claims fail
due to the Court’s six-year statute of limitations.” Fed. Cl. Doc. 8,
at 38 (Oct. 8, 2015).

8
Petitioners filed a motion for reconsideration, to
amend the judgment, and for leave to file a second
amended complaint, which the CFC denied. See Pet.
App. 64-91. Petitioners argued that their claims had accrued on either July 9, 2009 (when the sale order became effective) or July 10, 2009 (when the sale closed).
The court rejected both of these arguments. Id. at 7075. It also reaffirmed its prior ruling that petitioners
lacked a cognizable property right, id. at 90, and it denied the motion to further amend the complaint as futile, id. at 91.
b. The court of appeals affirmed. Pet. App. 1-23.
The court assumed without deciding that petitioners
possessed a cognizable property interest, id. at 6, but it
held that petitioners’ claims were time-barred under
the six-year statute of limitations contained in Section
2501, see id. at 11. The court characterized petitioners’
claims as resting on the government’s alleged “coercion
of Old GM to secure approval from the bankruptcy court
of a proposed sale order extinguishing [their] successor
liability claims.” Id. at 12. In the court’s view, the alleged taking occurred—and petitioners’ claim accrued—
on July 1, 2009, when Old GM filed the proposed sale
order with the bankruptcy court. Id. at 13.
The court of appeals explained that a property owner
has a takings claim “ ‘as soon as [the] government takes
his property for public use without paying for it’ without
regard to post-taking remedies that may be available,”
Pet. App. 14 (quoting Knick v. Township of Scott, 139
S. Ct. 2162, 2170 (2019)) (brackets in original), and that
“the claim accrues when the agency action is complete,
regardless of whether damages are complete and fully
calculable,” id. at 15 (citation and internal quotation
marks omitted). The court concluded that, “assuming

9
that [petitioners’ product-liability] claims had value in
the first place, despite the likelihood of no recovery if
Old GM had liquidated, the filing of the proposed bankruptcy sale order clearly inflicted an injury on [petitioners] by diminishing the value of their claimed property
rights.” Ibid. The court also rejected petitioners’ argument that the government’s coercive conduct was not
complete until the actual closing of the sale, explaining
that the government’s “ability to change its mind” does
not render an otherwise final action non-final. Id. at 16.
In addition to arguing that the government had coerced Old GM, petitioners claimed that “the government effected a taking by pressuring the bankruptcy
court and the district court to approve the proposed sale
order.” Pet. App. 19. The court of appeals held that it
lacked jurisdiction over this claim, as “the [CFC] ‘cannot entertain a taking[s] claim that requires the court
to scrutinize the actions of another tribunal.’ ” Ibid. (citation omitted; second set of brackets in original). Instead, the court explained, the proper avenue for challenging the orders of the bankruptcy and district courts
was through an appeal of those orders. Id. at 20.
Finally, the court of appeals affirmed the CFC’s denial of petitioners’ motion to file a second amended complaint, agreeing that such a filing would be futile. Pet.
App. 21-22.
Petitioners filed a petition for rehearing and for rehearing en banc, which the court of appeals denied. Pet.
App. 92-94.
ARGUMENT

Petitioners argue that Old GM’s submission of the
proposed sale order should not have triggered the commencement of the applicable limitations period and did
not reflect any final agency action. Petitioners contend

10
in particular that the court of appeals departed from established takings principles by holding that petitioners’
claims accrued before petitioners suffered any injury.
Those arguments lack merit.
The court of appeals found that, if petitioners’ productliability claims had any value to begin with, Old GM’s
submission of the proposed sale order inflicted a concrete injury on petitioners. The court further held that
the possibility that a government decisionmaker might
later reconsider an otherwise final decision does not
render that decision nonfinal. Because the court below
applied the correct legal framework, petitioners can
claim at most that the court misidentified the precise
point at which petitioners first suffered injury as a result of the government’s alleged coercive conduct. That
kind of factbound request for error correction does not
warrant this Court’s review, and the practical significance of the decision below is further diminished by the
atypical theory underlying petitioners’ takings claims.
Nor does the court of appeals’ ruling conflict with any
decision of another court. Further review is not warranted.
I.

PETITIONERS’ CRITICISMS
BELOW LACK MERIT

OF

THE

DECISION

A. Petitioners primarily argue (Pet. 19) that the
Federal Circuit “abandoned the injury-in-fact requirement” by holding that petitioners’ takings claim had accrued even before petitioners suffered concrete harm
from the government’s alleged coercion. In support of
this contention, petitioners excerpt a sentence of the
opinion below stating that a taking “may occur before
the effect of the regulatory action is felt.” Pet. 3 (quoting Pet. App. 14) (emphasis omitted). Petitioners con-

11
strue (Pet. 22-23) the Federal Circuit’s decision as holding that the time for filing suit commenced to run before
they suffered any concrete injury, which they assert did
not occur until July 10, 2009, when the sale closed.
Petitioners’ argument reflects a misunderstanding
of the opinion below. The court of appeals did not find
that the limitations period had begun to run before any
injury had occurred. Rather, the court explained that,
“assuming that [petitioners’] claims had value in the
first place, despite the likelihood of no recovery if Old
GM had liquidated, the filing of the proposed bankruptcy sale order clearly inflicted an injury on [petitioners] by diminishing the value of their claimed property
rights.” Pet. App. 15.
The quote that forms the basis for petitioners’ contrary reading of the opinion below—the court of appeals’ statement that a claim may accrue before the effect of a governmental action “is felt”—is taken out of
context. The full sentence reads: “In the case of a regulatory taking, however, the taking may occur before
the effect of the regulatory action is felt and actual
damage to the property interest is entirely determinable.” Pet. App. 14 (emphasis added). As the italicized
language makes clear, the court was simply observing
that, once a plaintiff has suffered concrete injury from
a final agency action, damages need not be fully liquidated in order for a claim to accrue. 4

Even if the court of appeals’ statement that a “taking may occur
before the effect of the regulatory action is felt” could be properly
understood in isolation, it would be dicta given the court’s clear holding that, assuming petitioners’ product-liability claims had value,
the submission of the proposed sale order inflicted concrete injury
in this case. Pet. App. 14-15.
4

12
Petitioners implicitly accept that proposition. Although
petitioners assert that their claims accrued on July 10,
2009, their complaint recognized that their precise damages were not determinable until petitioners received
partial compensation in the Old GM bankruptcy proceedings. See Pet. App. 157-158 (“At the time of the
Sale, the distributions to these claimants were neither
made nor capable of certain determination.”); id. at 158159 (alleging damages “based on the difference between
the allowed amount of each member’s prepetition Personal Injury Claim in the GM Bankruptcy and the actual recoveries on that claim in the GM Bankruptcy”).
Nearly all of petitioners’ arguments depend on their
misreading of the decision below. Petitioners contend
that the court of appeals’ decision conflicts with Franconia Associates v. United States, 536 U.S. 129 (2002).
In that case, the plaintiffs were federal borrowers who
allegedly had been given an absolute right to prepay
their loans at any time. Congress subsequently enacted
a statute that restricted the right to prepay, and the
plaintiffs later brought suit asserting takings and
breach-of-contract claims. Id. at 133. This Court held
that, although the enactment of the statute qualified as
an anticipatory repudiation of the contract, no actual
breach had occurred—and plaintiffs’ claims for breach
of contract therefore had not accrued—until the government actually failed to perform by refusing to accept
prepayment or the plaintiffs elected to treat the repudiation as a breach. Id. at 143-144. 5 In so ruling, the
Court rejected the proposition that Section 2501 “creates a special accrual rule for suits against the United
States.” Id. at 145.
The Court in Franconia did not separately address the proper
accrual rule for plaintiffs’ takings claim. See 536 U.S. at 149.
5

13
Petitioners’ contention that the court below improperly created a “special accrual rule” for takings claims
rests on the misreading of the court’s opinion described
above. Pet. 23 (citation omitted). Petitioners also assert (Pet. 22) that the submission of the proposed sale
order in this case was analogous to the contract repudiation in Franconia. Franconia’s contract-law analysis,
however, does not support petitioners here. To the contrary, because the Franconia Court held that the plaintiffs could have elected to treat the repudiation as a
breach and sued immediately, see 536 U.S. at 144, any
analogy between the repudiation in Franconia and the
submission of the proposed sale order in this case would
support the court of appeals’ conclusion that petitioners’ takings claims accrued when the proposed sale order was submitted. The Franconia Court’s further
holding that the plaintiffs could instead defer the accrual of their claims until the government actually refused to accept prepayment, see id. at 143-144, rested
on contract-law principles that do not apply here.
The court of appeals’ application of Section 2501 to
the circumstances of this case is also consistent with the
court’s discussion of the takings claims that could and
could not be asserted in a CFC action. The court explained that, under Federal Circuit precedent (which
petitioners do not challenge in this Court), “the coercion
that could give rise to a regulatory takings claim does
not include ‘coercion’ of the court system by making an
argument for a particular result,” since the CFC “ ‘cannot entertain a taking[s] claim that requires the court
to scrutinize the actions of another tribunal.’ ” Pet. App.
19 (citation omitted; brackets in original). For that reason, the only cognizable coercion-based takings claim
that petitioners could assert would rest on coercion of

14
Old GM, not of the bankruptcy court. See id. at 18. The
court’s conclusion that petitioners’ claims accrued on
July 1, 2009, when Old GM responded to that alleged
coercion by submitting the proposed sale order, is consistent with that analysis. 6
B. In the alternative, petitioners contend (Pet. 32)
that the government did not reach a final decision as to
the disposition of their claims until July 9, 2009, when
the district court denied the asbestos claimants’ request
for a stay pending appeal. See In re General Motors
Corp., No. M 47, 2009 WL 2033079, at *2 (S.D.N.Y.). In
petitioners’ view, the government might have decided to
assume petitioners’ claims if the district court had
stayed the sale order, since a stay would have forced the
government to choose between “assum[ing] these
claims or not clos[ing] on the Sale at the expense of the
national economy.” Pet. 32.
This argument rests on the possibility that the government might have changed its mind some days after
the proposed sale order was submitted. As the Federal
Circuit correctly held, however, the speculative possibility that the government might reconsider an otherwise final action does not render that action nonfinal.
See Knick v. Township of Scott, 139 S. Ct. 2162, 2170
(2019) (“[A] property owner has a claim for a violation
of the Takings Clause as soon as [the] government takes
The CFC held that, because petitioners’ claims were based on
the alleged “coercion of Old GM and the bankruptcy court into including the extinguishment of plaintiffs’ successor liability claims”
in the sale order, those claims had accrued no later than July 5, 2009,
when the bankruptcy court approved the proposed sale order. Pet.
App. 42. Even if the action of another court could trigger Section
2501’s six-year window for f iling suit in the CFC, that analysis
would provide a potential alternative ground for aff irmance here.
6

15
his property for public use without paying for it.”); id.
at 2171 (“The government’s post-taking actions ([such
as] repeal of the challenged ordinance) cannot nullify
the property owner’s existing Fifth Amendment
right.”); cf. 5 U.S.C. 704 (providing that “agency action
otherwise final is final for the purposes of this section
whether or not there has been presented or determined
an application for * * * any form of reconsideration”).
Petitioners have no response to this fundamental point.
Nor do they explain why a stay order entered at the behest of other parties might have caused the government
to reconsider its position with respect to petitioners’
claims. See Campbell v. Motors Liquidation Co. (In re
Motors Liquidation Co.), 428 B.R. 43, 50 (S.D.N.Y.
2010) (noting that asbestos claimants, but not petitioners, sought a stay).
II. THIS CASE DOES NOT WARRANT THE COURT’S REVIEW

A. Petitioners contend that the decision below
worked an avulsive change in the law by holding that
certain takings claims can accrue, and the applicable
limitations period can begin to run, before the plaintiff
has been injured. See, e.g., Pet. 19. As explained above,
see p. 11, supra, that argument reflects a misunderstanding of the court of appeals’ rationale. The court of
appeals’ holding that petitioners’ claims accrued on July
1, 2009, when Old GM submitted the proposed sale order, rested on the court’s determination that, if petitioners’ product-liability claims had value to begin with,
then petitioners suffered an injury at that time. See
Pet. App. 15; p. 11, supra. Any dispute as to the correctness of that case-specific determination raises no issue of broad legal or practical importance. Petitioners’

16
alternative argument (see Pet. 32) that the government’s refusal to assume petitioners’ claims was not final until July 9, 2009, when the district court denied the
asbestos claimants’ request for a stay pending appeal,
likewise amounts to a request for mere error-correction.
See Sup. Ct. R. 10 (“A petition for a writ of certiorari is
rarely granted when the asserted error consists of erroneous factual findings or the misapplication of a
properly stated rule of law.”); United States v. Johnston, 268 U.S. 220, 227 (1925) (“We do not grant a certiorari to review evidence and discuss specific facts.”).
All of the harmful consequences that petitioners predict will flow from the decision below depend on their
misreading of the Federal Circuit’s opinion. Petitioners
assert (Pet. 35) that “[t]he Federal Circuit’s rule that a
takings claim must be brought before the plaintiff has
been injured” “promotes the filing of premature ‘defensive’ takings lawsuits every time the Government may
have made a decision that might be later deemed ‘final.’ ” See also Pet. 34 (“Property owners nationwide,
however, now face a dilemma in light of the decision below: should they conform to the Federal Circuit’s new
accrual rule, or instead risk following this Court’s Franconia analysis[?]”). These and similar arguments disregard the court of appeals’ stated rationale for treating
July 1, 2009, as the date when petitioners’ claims accrued.
To be sure, because the precise date when a particular plaintiff first suffered a cognizable injury is sometimes subject to reasonable dispute, a prospective plaintiff will not always know exactly when a court would
view the applicable limitations period as having commenced. That uncertainty at the margins, however, is
an unavoidable consequence of Congress’s decision to

17
make the “accru[al]” of the plaintiff ’s cause of action
the event that triggers Section 2501’s limitations period. 28 U.S.C. 2501. 7 And because Section 2501 establishes a six-year limitations period, plaintiffs will generally have ample time to sue even in cases where there is
some uncertainty as to the precise date when that period began to run. Here, despite petitioners’ hyperbolic
assertion that the Federal Circuit required suit to “be
brought before the plaintiff has been injured” (Pet. 35),
the decision below gave petitioners five years and 356
days to sue from the date (July 10, 2009) that petitioners
regard as the true accrual date.
B. The atypical legal theory underlying petitioners’
takings claims further diminishes the practical significance of the decision below, and it would make this case
an unsuitable vehicle for clarifying general accrual principles. Petitioners’ takings claims rest on “unusual allegations” and do “not fit neatly into a normal takings
framework.” A & D Auto Sales, Inc. v. United States,
748 F.3d 1142, 1149 (Fed. Cir. 2014) (citation omitted).
Petitioners do not allege that the government directly
took their property or engaged in regulatory action that
directly impaired its value. Instead, they allege that the
government offered financial incentives to a third party
in a bankruptcy proceeding that induced the third party
to take actions that diminished the value of petitioners’
product-liability claims. In support of that theory, petitioners invoked the Federal Circuit’s decision in A & D
Auto Sales, which also arose out of the GM bankruptcy,
Indeed, petitioners have identif ied both July 10, 2009 (when the
bankruptcy sale closed), and July 9, 2009 (when the bankruptcy
court’s sale order became effective and the district court denied the
asbestos claimants’ stay request), as potential accrual dates for
their regulatory-takings claims. Pet. App. 12-13.
7

18
and in which the court held that similar allegations survived a motion to dismiss. See id. at 1153; see also Pet.
App. 2. The A & D Auto Sales court noted that “[t]he
facts of this case are unique and raise issues that have
not been decided before.” 748 F.3d at 1150.
The court of appeals’ accrual analysis turned heavily
on the unusual legal theory underlying petitioners’ complaint, and on the precise effects of coercion against different actors in a single bankruptcy proceeding. See
Pet. App. 2, 19 (identifying the point of accrual for
“claims alleging coercion of Old GM,” but holding that
it lacked jurisdiction over claims alleging “ ‘coercion’ of
the court system”); pp. 13-15, supra. Petitioners’ arguments on appeal are similarly bound up with their substantive legal theory, focusing on whether the government’s alleged coercion coincided with harm to petitioners’ property interests. Particularly given the absence
of any conflict among the circuits (discussed below),
there is no reason to suppose that similar accrual issues
will arise often. The Court’s review is unwarranted for
this reason as well.
C. Petitioners contend (Pet. 24) that the decision below conflicts with Cobb v. City of Stockton, 120 Cal.
Rptr. 3d 389 (Cal. Ct. App. 2011). As a threshold matter, a purported conflict with the decision of an intermediate state court—as opposed to another court of appeals or a state court of last resort—is not ordinarily a
sufficient basis for this Court’s review. See Sup. Ct. R.
10.
In any event, there is no conflict. In Cobb, the city
filed an eminent-domain action to acquire a portion of
the plaintiff ’s property in order to construct a road.
120 Cal. Rptr. 3d at 390. The court granted the city pre-

19
judgment possession of the property, and the city constructed the proposed roadway. Ibid. The eminent-domain
action was subsequently dismissed for failure to prosecute. Ibid. After the plaintiff brought an inversecondemnation suit, the court considered whether the
limitations period had commenced to run when the city
took possession of the property or when the eminentdomain lawsuit was dismissed. Id. at 392. The California appellate court held that the limitations period had
not begun to run until the latter event occurred, reasoning that the city had initially taken possession of the
property “pursuant to a court order” and thus was not
in “wrongful possession of the [p]roperty” until the lawsuit was dismissed. Id. at 394. That holding has no
bearing on this case, where there was no court authorization of temporary possession and therefore no subsequent termination of such possession.
Petitioners also assert that “[o]ther Federal Circuit
decisions recognize the separate injury requirement,
and the panel’s decision conflicts with these cases.” Pet.
26 (citing cases). Any intra-circuit conflict would not
warrant this Court’s review. See Wisniewski v. United
States, 353 U.S. 901, 902 (1957) (per curiam); Sup. Ct.
R. 10. And in any event, none of these decisions conflicts with the decision below, which concluded that, if
petitioners’ product-liability claims against GM had
value to begin with, petitioners were injured when the
proposed sale order was submitted on July 1, 2009. See
p. 11, supra.

20
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
MICHAEL GRANSTON
Deputy Assistant Attorney
General
FRANKLIN E. WHITE, JR.
JOHN J. TODOR
Attorneys

JULY 2020

